APPENDIX

Case: 18-50380, 02/06/2020, ID: 11587502, DktEntry: 48-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
FEB 6 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No.

U.S. COURT OF APPEALS

18-50380

D.C. No. 3:17-cr-01649-MMA-1
MEMORANDUM*

v.
BRAYAN GUTIERREZ-DIAZ,
Defendant - Appellant.

Appeal from the United States District Court
for the Southern District of California
Michael M. Anello, District Judge, Presiding
Submitted January 22, 2020**
Pasadena, California
Before: RAWLINSON, LEE, and BRESS, Circuit Judges.
Brayan Gutierrez-Diaz appeals the district court’s denial of his motion to
suppress post-arrest statements. We have jurisdiction under 28 U.S.C. § 1291, and
we affirm.
1.

*

We review de novo the adequacy of a Miranda warning. See United

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 18-50380, 02/06/2020, ID: 11587502, DktEntry: 48-1, Page 2 of 4

States v. Loucious, 847 F.3d 1146, 1148-49 (9th Cir. 2017). In reviewing the
sufficiency of a Miranda instruction, “courts are not required to examine the words
employed as if construing a will or defining the terms of an easement,” but rather
“simply whether the warnings reasonably convey to a suspect his rights.” Florida
v. Powell, 559 U.S. 50, 60 (2010) (citation omitted). Miranda does not mandate a
“precise formulation of the warnings given a criminal defendant.” California v.
Prysock, 453 U.S. 355, 359 (1981).
Gutierrez-Diaz argues that the Spanish translation of the Miranda warning he
received was deficient because of the claimed inherent ambiguity of the Spanish
pronoun “le,” which can mean either “him/her” or “you.” He maintains that he
understood the warning (which was both read to him and presented to him in writing)
to mean that an attorney could be appointed before Gutierrez-Diaz asked that
attorney questions (rather than that he would be appointed an attorney before
government agents asked him questions). Gutierrez-Diaz thus claims that the
warning failed to adequately inform him that he had the right to have an attorney
appointed prior to interrogation.
Even assuming Gutierrez-Diaz offers a correct translation — which the
government disputes — the Miranda warning that he received was adequate. Under
his proffered version, Gutierrez-Diaz was informed of his rights to: (i) “consult an
attorney”; (ii) “have an attorney present during the interrogation”; and (iii)

2

Case: 18-50380, 02/06/2020, ID: 11587502, DktEntry: 48-1, Page 3 of 4

“appointed” counsel if he was “unable to pay for the services of an attorney.”
Collectively, these statements provided Gutierrez-Diaz with sufficient notice
of his right to appointed counsel prior to interrogation. See Prysock, 453 U.S. at
356-61 (unnecessary to explicitly state when an attorney could be appointed, if the
Miranda warning conveys a general right to counsel before and during an
interrogation). Indeed, this court rejected a similar challenge in People of Territory
of Guam v. Snaer, 758 F.2d 1341, 1342-43 (9th Cir. 1985) (right to counsel before
interrogation is inferred when a Miranda instruction conveys both a general “right
to consult with a lawyer” and the more specific right to “have a lawyer present with
you while you are being questioned”). In addition, contextual clues such as the
waiver of rights section — which Gutierrez-Diaz signed — make clear that the
Miranda instruction, including the attorney appointment clause, pertains to
Gutierrez-Diaz’s rights in connection with being questioned.
2.

We review a district court’s ruling on whether to conduct an evidentiary

hearing on a motion to suppress for an abuse of discretion. See United States v.
Howell, 231 F.3d 615, 620 (9th Cir. 2000). Gutierrez-Diaz seeks an evidentiary
hearing for the sole purpose to determine which party’s translation of the Miranda
warning is correct. Because we agree with the district court’s conclusion that the
Miranda warning sufficed even under Gutierrez-Diaz’s translation, the district court
did not abuse its discretion in declining to conduct an evidentiary hearing.

3

Case: 18-50380, 02/06/2020, ID: 11587502, DktEntry: 48-1, Page 4 of 4

AFFIRMED.

4

